October 17, 2008

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Controls Over Delegation of Authority for Medical
         Agreements (Report Number CA-AR-09-001)

This report presents the results of our audit of the Controls Over Delegation of Authority
(DOA) for Medical Agreements (Project Number 08YG012CA000). Our objectives were
to determine whether oversight of agreement processes and procedures was adequate;
costs billed were adequately supported and authorized; services performed were within
the terms of the agreements; and agreements were competed among qualified
suppliers. See Appendix A for additional information about this audit.

Conclusion

The National Medical Director (NMD), Senior Area Medical Directors (SAMDs), District
Occupational Health Nurse Administrators (DOHNAs), and Supply Management
personnel could improve controls over the Medical Services DOA. Specifically, we
found that oversight of agreement processes and procedures was not adequate; costs
billed were not always adequately supported and authorized; services performed were
not always within the terms of the agreement; and DOHNAs did not maintain
documentation to demonstrate that the agreements were competed among qualified
suppliers.

We identified $5,846,330 in unsupported questioned costs1 due to improperly
authorized or expired agreements; $20,083 in questioned costs due to duplicate and
erroneous payments; and $1,078,775 in disbursements at risk2 due to inadequate
controls over contract nurse payments. See Appendix B for a detailed analysis of these
issues, and Appendix C for a summary of questioned costs and disbursements at risk
by district.




1
  Unsupported questioned costs are questioned because of missing or incomplete documentation, or failure to follow
required procedures.
2
  Disbursements at risk are disbursements for which key internal controls have not been applied, placing the
disbursements at risk for validity.
Controls Over Delegations of Authority for                                                           CA-AR-09-001
 Medical Agreements


Agreement Processes and Procedures

Key controls over medical agreement processes and procedures were not implemented.
For example, the NMD and Supply Management could not provide accurate information
on the total number of medical agreements and associated payments for fiscal year
(FY) 2007. According to the NMD’s DOA letter, the NMD is required to provide an
annual report that summarizes all activities. In FY 2004, Supply Management began
summarizing the activities for the NMD. However, because of insufficient
communication, Supply Management did not complete the report in FY 2006 and did not
provide the FY 2007 report to the NMD until August 2008. Incomplete or late data
reporting hinders management’s ability to monitor and assess the effectiveness of the
DOA.

Additionally, required documents often were not completed properly or not appropriately
maintained.3 Of the 1,285 file requirements we reviewed, 343 (27 percent) were
missing, expired, or not completed properly. Additionally, eight of the 10 districts we
visited did not maintain documentation to validate that contract nurses were correctly
paid. Further, six of these 10 districts did not maintain logs of declining balances in
funds.4 District personnel stated they had not received adequate training in obtaining
and maintaining required documentation, and therefore were uncertain of the
requirements. Further, the Occupational Health Services Training Manual did not
require DOHNAs and human resource (HR) managers to verify contract nurse payroll
reports. Not obtaining and maintaining required information in the agreement files
increases the risk for over expenditure of funds and increases the potential liability of
the U.S. Postal Service. We identified payments totaling $1,078,775 to contract nurses;
these payments are considered disbursements at risk.

Billing Support and Authorization

Payments were not always supported or properly authorized. Of the 2,967 payments
we reviewed, 403 (14 percent), totaling $87,894, had no supporting documentation such
as invoices; timesheets; PS Forms 8230, Authorization for Payment; or PS Forms 8232,
Payment for Personal Services Contract.5 We consider the payments to be
unsupported questioned costs. Additionally, we found 13 duplicate payments, totaling
$5,170, and 122 erroneous payments, totaling $14,913. We consider these payments
to be questioned costs.




3
  Postal Service (PS) Form 7314, Medical Agreement, requires credentialing documents such as licenses,
certifications, and insurance. Other required documents include medical agreement checklists, eBuy requisitions,
and fee schedules.
4
  Handbook AS-709, Credit Card Policies and Procedures for Local Buying, paragraph 332.12, requires a current
balance of declining funds be maintained on all bulk funded purchases.
5
  Handbook F-101, Field Accounting Procedures, paragraph 19-2.1, requires that payments must always be made
from an invoice, the invoice must be complete and accurate, and the goods or service must have been received.
Postal Service officials must verify that past due charges have been paid before submitting the current payment and
include all required forms and supporting documentation when submitting a document for payment.


                                                         2
Controls Over Delegations of Authority for                                                               CA-AR-09-001
 Medical Agreements


The NMD also surpassed the authority delegated to him by the Vice President, Supply
Management.6 Specifically, he did not issue letters of re-delegation to three SAMDs
because the areas did not hire a SAMD; so, he had other unauthorized personnel sign
the medical agreements. Also, he allowed persons other than the SAMD and area HR
Manager to sign medical agreements in the Western Area because the area is so
geographically large. As a result, the payments totaling $5,446,003 associated with
these agreements were not properly authorized and are considered unsupported
questioned costs. These conditions occurred because the personnel did not receive
adequate training and stated they were unaware of the requirements.

Terms of the Agreement and Services Performed

At seven of the 10 districts visited,7 we identified 38 expired medical agreements. This
occurred because of inadequate oversight by the DOHNAs. Additionally, controls were
not in place to prevent services from being ordered or payments made under expired
agreements. Because there were no active agreements to support these
disbursements, FY 2007 payments of $312,433 associated with these agreements are
considered unsupported questioned costs.

Agreement Competition

DOHNAs did not maintain adequate documentation to demonstrate that agreements
were competed among qualified suppliers. The DOHNAs stated that selection
techniques included knowledge of local suppliers’ past performance and prices charged.
However, the DOHNAs did not maintain documentation of competition, market
conditions, and selection criteria. Although the DOA requires all contract awards and
orders to be made to the supplier offering the best value to the Postal Service, the NMD
did not require the DOHNAs to document their methods for soliciting and awarding
agreements. As a result, we could not determine whether the Postal Service entered
into agreements with the suppliers offering the best value.




6
  The NMD DOA letter states that the authority to sign agreements on behalf of the Postal Service may be re-
delegated to a SAMD, if that individual is a Postal Service employee; if not, this authority may be re-delegated to the
area Manager, HR. In either case, the person to whom this authority is re-delegated may not re-delegate it further.
7
  PS Form 7314, Medical Agreement Checklist, states that contract renewal requests must be submitted no more
than 30 days after the expiration date of the original contract.


                                                           3
Controls Over Delegations of Authority for                                  CA-AR-09-001
 Medical Agreements



We recommend the Vice President, Supply Management, in coordination with the Vice
President, Employee Resource Management:

1. Establish and enforce detailed annual reporting procedures and processes to aid in
   monitoring and assessing the effectiveness of the Medical Delegation of Authority
   program.

2. Update the Occupational Health Services Training Manual to include requirements
   for obtaining, reviewing, and maintaining required agreement and payment
   information and documentation of best value determinations when soliciting and
   awarding medical agreements.

3. Require the National Medical Director to develop a training and oversight program to
   ensure responsible employees are properly trained in obtaining and maintaining
   agreement and payment information and documentation of best value
   determinations when soliciting and awarding medical agreements.

4. Ensure that District Occupational Health Nurses recover duplicate and erroneous
   payments from suppliers.

5. Require the National Medical Director to develop procedures to ensure authorized
   personnel sign medical agreements.

Management’s Comments

Management agreed with our findings, recommendations, unsupported questioned
costs, questioned costs, and disbursements at risk. Management has begun efforts to
strengthen controls over the delegation of authority and to standardize and develop
protocols in the National Medical Program. These efforts include a standardized
reporting system, an updated training manual, an oversight and audit process, and
training on these components. Duplicate and erroneous payments will be recovered,
and actions are underway to ensure medical agreements are signed by authorized
personnel. Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report. We will report $5,846,330 in unsupported
questioned costs, $20,083 in questioned costs, and $1,078,775 in disbursements at risk
in our Semiannual Report to Congress.




                                             4
Controls Over Delegations of Authority for                                 CA-AR-09-001
 Medical Agreements


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: H. Glen Walker
    Anthony J. Vegliante
    Dr. David H. Reid III
    William K. Peairs
    Susan A. Witt
    Katherine S. Banks




                                             5
Controls Over Delegations of Authority for                                                              CA-AR-09-001
 Medical Agreements


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The NMD is responsible for policy, contractual activities, and oversight for the Postal
Service’s Occupational Health Program, federally mandated occupational health and
medical services, and other related medical services. To accomplish this mission, the
NMD has a staff of one national Occupational Health Nurse Administrator (OHNA), nine
SAMDs, 18 associate area medical directors, nine area OHNAs, 100 district OHNAs,
and 30 medical nurse case managers.

The senior and associate area medical directors and area and district OHNA positions
were established in 1992. Many physicians were hired under an employee contract
through HR, while the NMD contracted with many of the OHNAs through the use of PS
Form 7314. In early 1993, Supply Management issued a DOA letter giving more
specific authority to the NMD because the scope of the NMD’s oversight had expanded
to include contract doctors and nurses who performed duties in place of Postal Service
employees whose positions had been abolished. The most recent DOA was issued to
the NMD on April 28, 1998.

The 1998 DOA states that purchasing authority can be re-delegated to a SAMD if that
individual is a Postal Service employee; if not, it can be re-delegated to the area
Manager, HR. In either case, the individual to whom this authority is re-delegated may
not re-delegate it further. The DOA requires that certain business principles be
followed.

    •    All suppliers should be treated in an objective and business-like manner.

    •    All actions taken should adhere to the Code of Ethical Conduct for Employees of
         the Executive Branch.

    •    When practical, requirements are to be competed among qualified private
         entities.

    •    All contractual agreements should be executed with the private entity that offers
         the best value8 to the Postal Service.

To monitor and assess the effectiveness of this delegation, the DOA requires the NMD
to submit an annual report summarizing all activities exercised under it and any re-
delegations to Supply Management using the “Report for Delegations of Authority
Outside Purchasing and Materials.”
8
  The Postal Service bases sourcing and material management decisions on best value. Best value is defined as the
outcome that provides the optimal combination of elements such as lowest total cost of ownership technology,
innovation and efficiency, assurance of supply, and quality for the Postal Service’s needs. In the sourcing area, best
value is generally achieved through competition, which brings market forces to bear and allows the direct comparison
of proposals and life cycle costs, although market conditions may dictate a single- or sole-source strategy as the best
business approach.


                                                           6
Controls Over Delegations of Authority for                                    CA-AR-09-001
 Medical Agreements



OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether oversight of agreement processes and
procedures was adequate; costs billed were adequately supported and authorized;
services performed were within the terms of the agreements; and agreements were
competed among qualified suppliers.

We conducted this performance audit from December 2007 through October 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. To assist in achieving the
audit objectives, we relied on FY 2007 data in the Accounts Payable System. We
compared the data to information in the medical agreement files and believe it is
sufficiently reliable to support our conclusions and recommendations. We discussed
our observations and conclusions with management officials on September 2, 2008,
and included their comments where appropriate.

Based on surveys of district personnel, we identified a national universe of
approximately 839 medical agreements in 87 districts. The Postal Service was not able
to provide total expenditure data for the agreements. Accounts Payable System data
indicated that expenditures for the agreements totaled between $12 and $18 million for
FY 2007. We statistically selected the following 10 districts for review.

                                          Number of
                                           Medical   Number of      Total
                                         Agreements Transactions   Costs
                    District              Reviewed    Reviewed   Reviewed
              Albany                              18         875   $233,036
              Bay Valley                           6         235    325,728
              Central Plains                      29         341    187,905
              Cincinnati                           1          26     68,912
              Fort Worth                          11         242     92,831
              Lakeland                            13         267    376,711
              North Illinois                       9         186    212,139
              Richmond                            17         168    564,970
              Rio Grande                          17         306    246,040
              Southeast Michigan                   6         321    125,438
              TOTAL                             127        2,967 $2,433,710




                                                7
Controls Over Delegations of Authority for                                  CA-AR-09-001
 Medical Agreements



At each district visited, we performed the following procedures.

    •   We interviewed the SAMD and associate medical directors, OHNA, Human
        Resource Manager, and other district personnel to obtain an understanding of
        the policies, procedures, and responsibilities followed by the district.

    •   We reviewed the medical agreement to determine whether criteria for selecting
        the provider was documented and whether the agreements contained physicians’
        medical licenses, nurses’ licenses, liability and malpractice insurance
        documentation, certification to perform cardiopulmonary resuscitation, business
        licenses, and security clearances, as applicable.

    •   We reviewed the medical agreements to determine whether they were properly
        authorized.

    •   We reviewed financial records to determine whether FY 2007 costs were billed
        according to the agreement fee schedule and supported by an eBuy requisition
        and invoice or weekly timesheet, as appropriate.




                                             8
         Controls Over Delegations of Authority for                                                   CA-AR-09-001
          Medical Agreements


         PRIOR AUDIT COVERAGE

         We identified one Postal Service Supply Management Review for Excellence Program
         report and one OIG report issued within the past 5 years related to this subject.

   Report Title      Report Number       Final Report Date                           Report Results
Follow-up Review          N/A            March 2008               • Follow-up to November 2000 and March 2001
of Supply                                                           reports.
Management’s                                                      • Overall, the NMD executed the DOA in accordance
Medical Services                                                    with the delegation letter. Most issues arising under
Delegation of                                                       this DOA continued to stem from the use of the PS
Authority;                                                          Form 7314 for medical and nursing services and the
Contracts for                                                       extensive documentation required to process
Medical and                                                         payments.
Nursing Services                                                  • Next steps were identified, including laying out
                                                                    timeframes for updating the DOA and re-delegations
                                                                    of authority, developing uniform guidelines for
                                                                    national distribution to assist area and district
                                                                    personnel in establishing and administering medical
                                                                    agreements, and determining the need for
                                                                    establishing just-in-time training or knowledge-
                                                                    sharing sessions for medical and HR personnel who
                                                                    establish and administer medical agreements.
The Postal           HM-MA-08-001         February 21, 2008       • The selection process for Equal Employment
Service’s Equal                                                     Opportunity (EEO) contract investigators and final
Employment                                                          agency decision writers was not adequately
Opportunity                                                         documented to ensure compliance with the DOA
Contracting                                                         requirements.
Function                                                          • Management agreed with the recommendation to
                                                                    document the processes and procedures used to
                                                                    select EEO contract investigators and final agency
                                                                    decision writing services.




                                                              9
Controls Over Delegations of Authority for                                   CA-AR-09-001
 Medical Agreements


                              APPENDIX B: DETAILED ANALYSIS

Agreement Processes and Procedures

Key controls and processes were not implemented. For example, the DOA letter
references an attached form to be used as a basis for the required annual report.
However, the form could not be located during our review. In FY 2004, Supply
Management began summarizing the activities for the NMD. However, because of
insufficient communication, Supply Management officials gathered partial information for
FY 2006 and did not provide FY 2007 information to the NMD until August 2008.
Supply Management officials and the NMD agreed there is a need to better define the
data reporting guidelines and processes in order to gather and report future information.

Also, required documents often were not completed properly or were not appropriately
maintained. District personnel stated they had not received adequate training in
obtaining and maintaining required documentation, and were, therefore, uncertain of the
requirements. The percentage of documents missing, expired, or not completed
properly by district is detailed in the following table.

                               Table 1. Required Documents
                                                 Percentage of
                                              Documents Missing,
                                                Expired, or Not
                               District       Completed Properly
                         Albany                       12
                         Bay Valley                   35
                         Central Plains               13
                         Cincinnati                   20
                         Fort Worth                   38
                         Lakeland                     32
                         Northern Illinois            67
                         Richmond                     42
                         Rio Grande                   23
                         Southeast Michigan           33

Charts 1 and 2 below show the individual percentages of documents that were missing,
expired, or not properly completed for medical and nursing agreements. An agreement
file could have multiple types of noncompliance.




                                             10
Controls Over Delegations of Authority for        CA-AR-09-001
 Medical Agreements




                                             11
Controls Over Delegations of Authority for        CA-AR-09-001
 Medical Agreements




                                             12
Controls Over Delegations of Authority for                                    CA-AR-09-001
 Medical Agreements



DOHNAs are responsible for ensuring services are received and payments for those
services are accurate. Postal Service personnel and contractors are not required to, but
should include payroll reports, in addition to the timesheets and PS Forms 8232, in the
contract nurse files to validate payments. Table 2 below lists the districts that did not
properly validate payments to contract nurses and the associated dollar amounts. We
will report the $1,078,775 as disbursements at risk because Postal Service personnel
did not have adequate documentation to support the disbursements.

                                    Table 2. Nurse Payments
                                                      Value of
                                                      Nursing
                                      District       Payments
                                Albany                 $106,475
                                Central Plains           48,750
                                Cincinnati               68,912
                                Fort Worth               45,569
                                Lakeland                 74,066
                                Northern Illinois       201,709
                                Richmond                434,386
                                Southeast Michigan       98,908
                                TOTAL                $1,078,775

Finally, the Bay Valley, Fort Worth, Lakeland, Northern Illinois, Richmond, and
Southeast Michigan Districts did not maintain logs of declining balances of bulk funds to
ensure funds were available to make payments.

Billing Support and Authorization

Payments were not always supported or authorized. We identified 403 payments that
had no supporting documentation such as invoices, timesheets, PS Forms 8230, or PS
Forms 8232. These conditions occurred because personnel did not receive adequate
training and stated they were unaware of the requirements. Table 3 below lists
payments by district. We consider the $87,894 to be unsupported questioned costs.

                              Table 3. Unsupported Payments
                                           Number of Unsupported
                            District       Payments     Amount
                      Albany                     273       $69,262
                      Bay Valley                    1          625
                      Central Plains                5        1,406
                      Lakeland                     20        7,778
                      Richmond                      7        4,945
                      Rio Grande                    3          192
                      Southeast Michigan           94        3,686
                      TOTAL                      403       $87,894


                                              13
 Controls Over Delegations of Authority for                                  CA-AR-09-001
  Medical Agreements



 We identified 13 duplicate and 122 erroneous payments, as shown in Table 4 below.
 We consider the $20,083 in duplicate and erroneous payments as recoverable
 questioned costs.

                           Table 4. Duplicate & Erroneous Payments
                            Number of    Value of   Number of   Value of       Total
                            Duplicate    Duplicate Erroneous Erroneous       Questioned
      District              Payments Payments Payments Payments                Costs
Albany                               2          $47          0         $0            $47
Bay Valley                           1           15          1         15             30
Central Plains                       1           18          0           0            18
Fort Worth                           1          186        108     13,699        13,885
Lakeland                             8        4,904          0           0         4,904
Northern Illinois                    0            0          8      1,076          1,076
Rio Grande                           0            0          3         40             40
Southeast Michigan                   0            0          2         83             83
TOTAL                               13      $5,170         122    $14,913       $20,083

 We also identified 494 agreements that were not appropriately authorized, as shown in
 Table 5 below. We consider the $5,446,003 to be unsupported questioned costs.

                              Table 5. Unauthorized Signatures
                                          Number of     Value of
                               Area      Agreements Agreements
                           Eastern                72      $816,175
                           Great Lakes            82     1,045,641
                           Pacific                37     1,581,653
                           Southeast              52       913,752
                           Western               251     1,088,782
                           Total                 494    $5,446,003

 Terms of the Agreement and Services Performed

 We found that payments were still being made against 38 expired medical agreements,
 as shown in Table 6 below. This occurred because of inadequate oversight by the
 DOHNAs. We consider the $312,433 in FY 2007 payments associated with the
 agreements to be questioned costs.




                                              14
Controls Over Delegations of Authority for                               CA-AR-09-001
 Medical Agreements




                                Table 6. Expired Agreements
                                                      Value of FY 2007
                                                         Payments
                                          Number of   Associated with
                                           Expired        Expired
                         District        Agreements     Agreements
                   Bay Valley                      5          $150,220
                   Cincinnati                      5            34,236
                   Lakeland                        6            61,582
                   Northern Illinois               5             7,353
                   Richmond                        8            35,582
                   Rio Grande                      8            16,678
                   Southeast Michigan              1             6,782
                   TOTAL                          38          $312,433




                                             15
  Controls Over Delegations of Authority for                                 CA-AR-09-001
   Medical Agreements


                      APPENDIX C: SUMMARY OF QUESTIONED COSTS
                        AND DISBURSEMENTS AT RISK BY DISTRICT

                                                  Unsupported
                                    Questioned    Questioned   Disbursements
       Site Location                  Costs          Costs         at Risk        Total
Albany District                             $47        $69,262        $106,475   $175,784
Bay Valley District                          30        150,845               0    150,875
Central Plains District                      18          1,406          48,750     50,174
Cincinnati District                           0         34,236          68,912    103,148
Fort Worth District                     13,885               0          45,569     59,454
Lakeland District                         4,904         69,360          74,066    148,330
Northern Illinois District                1,076          7,353         201,709    210,138
Richmond District                             0         40,527         434,386    474,913
Rio Grande District                          40         16,870               0     16,910
Southeast Michigan District                  83         10,468          98,908    109,459
Eastern Area                                  0        816,175               0    816,175
Great Lakes Area                              0      1,045,641               0  1,045,641
Pacific Area                                  0      1,581,653               0  1,581,653
Southeastern Area                             0        913,752               0    913,752
Western Area                                  0      1,088,782               0  1,088,782
TOTAL                                  $20,083      $5,846,330      $1,078,775 $6,945,188




                                                  16
Controls Over Delegations of Authority for                  CA-AR-09-001
 Medical Agreements


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                             17
Controls Over Delegations of Authority for        CA-AR-09-001
 Medical Agreements




                                             18
Controls Over Delegations of Authority for        CA-AR-09-001
 Medical Agreements




                                             19
